<html>
<title> - PRACTICING ISLAM IN TODAY'S CHINA: DIFFERING REALITIES FOR THE UIGHURS AND THE HUI</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]






PRACTICING ISLAM IN TODAY'S CHINA: DIFFERING REALITIES FOR THE UIGHURS 
                              AND THE HUI

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2004

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-259                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

JIM LEACH, Iowa, Chairman
DOUG BEREUTER, Nebraska
DAVID DREIER, California
FRANK WOLF, Virginia
JOE PITTS, Pennsylvania
SANDER LEVIN, Michigan
MARCY KAPTUR, Ohio
SHERROD BROWN, Ohio
DAVID WU, Oregon

                                     CHUCK HAGEL, Nebraska, Co-Chairman
                                     CRAIG THOMAS, Wyoming
                                     SAM BROWNBACK, Kansas
                                     PAT ROBERTS, Kansas
                                     GORDON SMITH, Oregon
                                     MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     BYRON DORGAN, North Dakota

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State
                  STEPHEN J. LAW, Department of Labor

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Lipman, Jonathan, professor of history, Mount Holyoke College, 
  South Hadley, MA...............................................     2
Barat, Kahar, lecturer in Near Eastern Languages and 
  Civilizations, Yale University, New Haven, CT..................     5
Bovingdon, Gardner, assistant professor of Central Eurasian 
  Studies, Indiana University at Bloomington, Bloomington, IN....     8

                                APPENDIX
                          Prepared Statements

Lipman, Jonathan.................................................    28
Batat, Kahar.....................................................    29

 
                  PRACTICING ISLAM IN TODAY'S CHINA: 
            DIFFERING REALITIES FOR THE UIGHURS AND THE HUI

                              ----------                              


                          MONDAY, MAY 17, 2004

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2 p.m., 
in room 2255, Rayburn House Office building, John Foarde (staff 
director) presiding.
    Also present: David Dorman, deputy staff director; 
Christian Whiton, Office of Under Secretary of State for Global 
Affairs Paula Dobriansky; Susan O'Sullivan and Rana Siu, Office 
of Assistant Secretary of State for Democracy, Human Rights, 
and Labor Lorne Craner; Susan Roosevelt Weld, general counsel; 
Anne Tsai, specialist on ethnic minorities; and Steve Marshall, 
senior advisor.
    Mr. Foarde. Good afternoon to everyone. My name is John 
Foarde. I am the staff director of the Congressional-Executive 
Commission on China. Welcome to this CECC issues roundtable on 
``Islam in Today's China.''
    On behalf of our 23 Commission members, and particularly 
Chairman Jim Leach and Co-chairman Chuck Hagel, welcome to our 
three panelists and to all of you who are attending this 
afternoon.
    According to government statistics, which I think many of 
us agree are subject to question, China has over 20 million 
Muslims, over 40,000 Islamic places of worship, and over 45,000 
imams.
    Islam is an officially-sanctioned religion. Article 36 of 
the Chinese Constitution nominally ensures freedom of religious 
belief and ``normal religious activity'' for Muslims in China. 
Reports regularly surface, however, of government-imposed 
restrictions on Muslim religious activities. According to these 
reports, Chinese officials censor the sermons given by imams, 
limit the ability of Muslim communities to build mosques, and 
discourage Muslims from wearing religious attire. Chinese 
policy also prohibits teaching Islam to those under 18 years of 
age.
    The Uighurs and the Hui, China's dominant Muslim groups, 
have distinct ethnic, cultural, and historical backgrounds, and 
Chinese authorities treat the two groups differently. The 
Uighurs, who are of Turkish descent, face harsh religious 
restrictions and repression, since Chinese authorities 
associate the group with separatism and with terrorism in 
western China. The Hui, who are related ethnically to the Han 
Chinese majority, enjoy greater freedom to practice Islam than 
Uighurs Muslims.
    This roundtable will examine the current situation of Islam 
in China and the realities of Muslim life across the country. 
We are privileged to have three extraordinary panelists to 
share their expertise with us this afternoon.
    I will introduce each of them in more detail before they 
speak, but welcome to Jonathan Lipman, Kahar Barat, and Gardner 
Bovingdon.
    Perhaps I will talk just briefly about the ground rules. 
Each panelist will have 10 minutes to make an opening 
statement, and we will, of course, be delighted to accept a 
written statement to put in the record. I will tell you when 
you have about two minutes remaining, and that is your signal 
to wrap things up. When all three of the panelists have spoken, 
we will open the floor to the staff panel here representing our 
Commissioners and the CECC staff to ask questions and to hear 
the answer, for a total of about five minutes each. We will do 
as many rounds as we have time for before 3:30.
    So, without further ado, let me introduce Professor 
Jonathan Lipman of Mount Holyoke College. Professor Lipman's 
areas of specialty include East Asian history, especially the 
modern period, Central Asian and Islamic studies, Asian 
studies, international 
relations, and Jewish studies. He is the author of ``Familiar 
Strangers,'' a history of Muslims in northwest China published 
by the University of Washington Press in 1998, and co-author of 
``Imperial Japan: Extension and War, a Humanities Approach to 
Japanese History, Part 3,'' published by Social Science 
Education Consortium in 1995.
    Professor Lipman has also edited two volumes on China and 
published dozens of articles, book chapters, and reviews on a 
wide range of subjects. He lectures nationally and 
internationally and is the winner of numerous grants, including 
a major grant for faculty development in East Asian studies at 
the ``Five Colleges:'' Mount Holyoke, Smith, Hampshire, and 
Amherst Colleges, and the University of Massachusetts at 
Amherst. Professor Lipman is a 
dedicated leader in understanding and teaching Asian culture 
and history.
    Professor Jonathan Lipman, thank you very much for being 
with us. Over to you for 10 minutes.

   STATEMENT OF JONATHAN LIPMAN, PROFESSOR OF HISTORY, MOUNT 
               HOLYOKE COLLEGE, SOUTH HADLEY, MA

    Mr. Lipman. Thank you very much, especially to the 
Commission for this opportunity to speak on something I have 
studied for a lot of years, and still have so much more to 
learn about.
    The presence of considerable numbers of Muslims throughout 
the Chinese cultural area has created difficulties of both 
perception and policy for every China-based state since the 
14th century. Living in every province and almost every county 
of the People's Republic, the people now called Hui have 
managed simultaneously to acculturate to local society wherever 
they live and to remain effectively different, to widely 
varying extents, from their non-Muslim neighbors. Most of them 
use local Chinese language exclusively and they have developed 
their so-called customs and habits in constant interaction with 
local non-Muslims, whom they usually resemble strongly in 
material life. Intermarriage has made them physically similar 
to their neighbors, with some exceptions in the northwest. But 
their Islamic practice and/or collective memory of a separate 
tradition and history allow them to maintain distinct 
identities.
    In short, they are both Chinese and Muslim, a problem that 
must be solved within many local contexts, for there is no 
single isolated territory occupied primarily by Hui which could 
serve as a model for Hui all over China. Many of the 
characteristics of the Chinese Muslims can only be understood 
through the localness of Hui communities, despite their common 
Muslim religion and state-defined minzu identity. This is my 
main point. Their adaptations include learning local language 
and fitting into local economic systems, sometimes, but not 
always, in occupations marked as Hui, tanning, jade selling, 
and keeping halal restaurants.
    Chinese scholars posit two simultaneous interlocking 
processes, what we might translate as ethnicization and 
localization, as responsible for the formation of the Hui 
within the Chinese cultural matrix. But these two processes 
have not generated any uniformity amongst these communities. 
Even the centrality of the mosque, 
obvious in Muslim communities anywhere, has been modified by 
acculturative processes in some eastern Chinese cities where, 
perhaps, the halal restaurant, or even other community centers, 
might take precedence.
    Hui intellectuals, when they talk about themselves, 
emphasize the national quality of ``Huiness,'' what we might 
call its minority nationality core. But many ordinary Hui, when 
they talk about themselves, stress the local. Religious leaders 
and pious individuals, of course, place greatest importance on 
Islamic religion as a unifying valance of identify, but they 
also recognize its limits.
    Despite the claim that ``all Muslims under Heaven are one 
family,'' most Hui clergy and most ordinary Muslims do not 
connect themselves easily or comfortably with Turkic-speaking 
Muslims in Xinjiang, whether considering their culture or their 
imagined sociopolitical ambitions. Only in religion is the 
connection made, and even then it can be tenuous. After all, 
the vast majority of Hui, even those who have traveled 
extensively in the Middle East, are clearly Chinese in their 
language, material culture, and textural lives outside the 
mosque. However much they might identify with Muslims 
elsewhere, even unto donning Arab clothing and headgear for 
photo opportunities, Hui are not members of Malay, Turkish, 
Persian, or Arab, or any other obviously Muslim culture in 
which Islam is a natural component of identity. On the 
contrary, they must distinguish themselves constantly from the 
overwhelming majority of Chinese speakers who are not Muslims, 
while still remaining part of the only culture and polity in 
which their identify makes sense, namely China.
    Seen in that light, my study of the Hui suggests some 
conclusions regarding their place in contemporary China. These 
conclusions, of course, are not all directly related to Islam, 
but because Islam is the characteristic of Hui people that 
distinguishes them most obviously from non-Muslim Chinese, I 
believe that all of these conclusions are, to some extent, 
germane to the problem of Islam in China.
    First, the Hui do not exist as a unified, self-conscious, 
organized entity. Some would argue that no ethnic group 
conforms to these criteria, but our commonsensical notion of 
``the Uighurs,'' for example, or of ``the Tibetans,'' discussed 
in endless newspaper articles indicates that many of us believe 
that ethnic groups should, or do, look like that. The Hui do 
not.
    The Hui have some national leaders, but they are all 
empowered and, thus, to some subjective extent, delegitimized 
by their intimate association with the state, for they lead the 
``Hui'' through the National Islamic Association, the 
Nationalities Commission, state-sponsored madrassas, public 
universities, and other government-approved organizations. In 
contrast, separatist movements in East Turkestan, based in 
Germany and the USA, for example; the Independent Republic of 
Mongolia, which is a nation state; and the Dalai Lama's 
leadership of a substantial portion of Tibetans from exile all 
are headquartered outside of China. These represent models for 
ethnic identity which the Hui do not--indeed, cannot--follow.
    Second, some Hui communities are more difficult, sensitive, 
volatile, and potentially violent than others. This could be 
due to historical memory of confrontation, desire for revenge, 
too bellicose or inflexible Muslim leadership, to local 
geographical or economic conditions which militate against 
harmony with non-Muslim neighbors or the state, to insensitive 
or downright discriminatory policy or behavior from 
functionaries of the state at various levels.
    Negotiation between Muslim leaders and state authorities 
has succeeded in some cities and prevented the escalation of 
conflict in others, allowing some Hui communities to thrive. On 
the other hand, in places such as Yuxi and Xiadian in Yunnan, 
in some counties of western Shandong, and in southern Ningxia, 
Hui communities have exploded in violence against one another 
or against the forces of law and order. Similar and 
geographically proximate communities in Yunnan, for example, 
have had very different histories. How much more disparate must 
local Hui histories be in Gansu, Henan, Beijing, or elsewhere?
    Third, we cannot ignore the power of PRC [People's Republic 
of China] minzu policy and its underlying vision of ``the 
minorities,'' the xiaoshuminzu, including the Hui, as primitive 
peoples who require the leadership of the advanced Han minzu in 
order to advance toward the light of modernity. This mixture of 
condescension and fear toward non-Chinese people has much power 
in Han society. There can be no question that some Hui resent 
this attitude and its attendant policies, but others do not, or 
at least they mute their enmity with acknowledgement of Hui 
achievements and successes in both the past and the present. An 
oft-heard contemporary claim states that ``We Hui can always 
defeat the Han in business; they are afraid of us.'' This 
echoes an edgy old Han proverb, ``Ten Hui, nine thieves.''
    Though this persistent ethnocentrism will always produce 
small-scale confrontation, even rage and violence, there are no 
Hui leaders or organizations calling upon all Hui all over 
China to reject the authority of the current system in favor of 
Hui hegemony or of emigration. In this, the Hui of China 
strongly resemble the Muslims of India, who persist in their 
homeland despite constant tension and occasional open ruptures 
with the majority society which, to some extent, denies the 
validity of their sense of belonging and brands them as 
dangerous and foreign. But unlike the Indian Muslims, the Hui 
have no Pakistan, no Bangladesh to which they can turn as a 
``more authentic'' homeland, and they constitute an 
incomparably smaller percentage of the general population. That 
is, the Hui can only be Hui in China.
    Finally, as far as most Hui are concerned, neither 
separatist movements nor Islamic fundamentalism should 
undermine the unity of China as a nation state. The Hui can 
only be Hui in China, however orthodox or othropractic they may 
be in their Islamic lives. Even if increasing international 
communication raises the consciousness of Middle Eastern issues 
and Islamic identity among the Hui, this will result in calls 
for ``authentic'' religion rather than separatism.
    The small communities of Hui living outside of China--in 
Turkey, for example, or in Los Angeles--have not attempted to 
set up governments in exile, but rather halal Chinese 
restaurants, confirming to the pattern of other Chinese 
emigrants in those part of the world. Thus, despite the Hui 
being defined as a ``minority 
nationality,'' we must nonetheless regard them as unequivocally 
Chinese, though sometimes marginal or even despised Chinese.
    Some among them, especially young and militant imams, might 
claim that the unity of the Islamic ummah overrides national 
Chinese identity, but this contention cannot be shared by most 
Hui. Like African Americans or French Jews, the majority of Hui 
participate as patriotic citizens in the political and cultural 
life of their homeland, even when antagonistic elements in the 
society or State challenge their authenticity or loyalty.
    Thank you.
    [The prepared statement of Mr. Lipman appears in the 
appendix.]
    Mr. Foarde. Thank you, Professor. Very interesting food for 
thought, and for our subsequent question and answer session.
    I would now like to recognize Kahar Barat, who comes to us 
from Yale University, where he is a lecturer in Near Eastern 
Languages and Civilizations. He is a specialist in inter-Asian 
and Altaic studies. His major research interest involves the 
publication of early 10th century Uighur-Turkic translation of 
the biography of Xuanzang, who traveled to 132 inner-Asian and 
Indian states during the late 7th century, A.D. The first 
volume of a projected three-volume work appeared in 2000, 
published by Indiana University Press, and Kahar has also 
published nearly 40 articles on a wide variety of topics. He 
has been a research affiliate at the Harvard Yenching Institute 
and the Center for Studies of World Religions, as well as the 
East-West Center in Hawaii. He has won numerous grants and 
awards and has taught at Harvard, and in China and Taiwan.
    Welcome. Thank you for coming this afternoon. Please.

 STATEMENT OF KAHAR BARAT, LECTURER IN NEAR EASTERN LANGUAGES 
       AND CIVILIZATIONS, YALE UNIVERSITY, NEW HAVEN, CT

    Mr. Barat. Thanks to the Congressional-Executive Commission 
on China for inviting me to present testimony about the 
religious situation in East Turkestan. Also, thanks to the 
Uighur friends who shared ideas with me on this special issue.
    The Uighurs' territory was the easternmost edge of the 
medieval Islamic Empire where religion was loosely organized, 
isolated, and backward. Missionaries brought Islam to Kashgar 
in the 10th century. But the Islamization of the whole of East 
Turkestan took more than 500 years, as the widely displaced 
oasis population was converted one by one from Buddhism and 
Christianity.
    Preserving pre-Islamic and indigenous religious beliefs, 
the Uighur people created a moderate and liberal form of Sunni 
Islam. Under the patronage of Chagatai rulers, Islam gained a 
strong theocratic power. Central Asian Naqshbandiyya Sufism 
held sway for centuries, especially in the Tarim basin.
    But then came the Manchurian invasion from 1759. The 
Manchus blanketed the area with colonial non-Muslim 
administration and limited the Islamic authority to a secondary 
position. During the early modern period, some progressive 
merchants such as Musabay and Muhiti brought Jadidist teachers 
from universities in Kazan, Istanbul, and Moscow to open 
western-style schools. Sixteen new schools opened in East 
Turkestan from 1885 to 1916. A textbook publisher opened up 
shop in Kashgar in 1910.
    Mao Zedong's religious policy was of a typical Soviet type, 
trying to eliminate religion from society. The Communists 
trumpeted communism and atheism as progressive and Islam as 
feudal, backward, and superstitious. During that time each town 
was reduced to have one mosque, and big cities to have two to 
three mosques, open mainly for funeral ceremonies. A more 
devastating attack on religion came between 1967 and 1969 
during the Cultural Revolution, when almost all mosques were 
destroyed, imams were persecuted, and millions of books were 
burned.
    As a result of 30 years of enforced atheism, the majority 
of Uighur people became separated from Islam. Younger 
generations grew up knowing nothing about the religion, and the 
Koran was not available. Despite all this, there had always 
been a small group of old people who kept praying secretly and 
Uighur people in general maintained their faith at a minimum 
level. No boy remained without circumcision, no one was buried 
without prayer, and almost no Uighur ate pork, even though some 
Uighur cadres raised pigs.
    After the introduction of the open door policy in China in 
the late 1970s, there was a short period of time in which 
Uighur Muslims could restore the mosques, some attended 
organized Hajj pilgrimages, and students went to al-Azhar and 
Islamabad universities to study Islam. For an unprepared Uighur 
nation, the return to Islam caused great excitement. Young and 
old Uighurs desperately searched for a way to learn how to 
pray. Mosques were soon full again. Privately funded mosques 
were built everywhere. The Uighurs who had studied abroad or 
returned from the Hajj brought a new understanding about Islam 
contrary to communistic distortions, that was more open, 
intelligent, and cosmopolitan. The Koran was translated into 
Uighur in 1985, as was Bukhari and other Arabic classics. Some 
young imams played an active role fighting against social 
problems and crimes such as alcoholism, drugs, and 
prostitution, which is still a disaster in China. But the 
government viewed the new positive trend as a threat, and 
responded with a hard-line repressive policy. Such new 
religious freedom lasted only 10 years, from 1978 to 1988.
    The nationalistic revolutions of Sun Yat-sen and Mao wiped 
out the imperial line and religion from China. What that might 
bring to this strong nation is a historical myth. Does Chinese 
society need religion? Why did Falun Gong develop? Ever since, 
Han chauvinism became the leading ideology in all 
administration. The economic growth and social changes in China 
simultaneously brought a drastic assimilation of all minority 
cultures and even Chinese local cultures. If the situation 
continues as it is, within a century we may see only 6 
nationalities left, instead of the 56, and that will not bring 
anything positive to this society. Now the ethnic assimilation 
is attacking the minorities in both quiet and violent ways. The 
attack comes from two directions: ``Either you give up your 
identity to become Chinese, or I will kill your language, 
religion, and culture to make you a Chinese.'' If ten 
generations will suffer from the reckless growth of population 
in China, a hundred generations will suffer from the trend 
toward a depressingly homogenous society.
    What we have been seeing lately is the last scene of 
communism, with the anti-Islamic ethnic killings happening in 
Bosnia and Chechnya. China operated a similar war in its 
backyard, by supplementing the military presence in the Uighur 
area. Under the guise of going after ``religious extremists,'' 
and ``Islamic fundamentalists'' associated with 
``separatists,'' they killed and arrested thousands of 
religious teachers and students. The 1995 Khotan incident was 
triggered by the arrest of Imam Abduqeyim Abdumijit. The 1997 
Ili incident began with the police arrest of some Uighur boys 
and girls while they were praying at the Night of Power 
``Lailat ul-Qadr'' during the holy month of Ramadan. Who is 
using the religion for what purpose?
    Now all the state employees and students are strictly 
forbidden to practice Islam. China's propaganda machine has 
been using their traditional methods, fomenting ethnic hatred, 
demonizing the Uighur image, depicting Uighur resistance as 
international terrorism, and convincing the international 
community in many ways. Many Uighur people feel betrayed by the 
world when they see a single digit persecution in Tibet greeted 
by six digit condemnation while six digit Uighur persecutions 
receive not a single digit of sympathy. Neighboring weak 
countries deport Uighur refugees back to China, sacrificing the 
lamb to the beast. Life has become so confusing for Uighurs, 
that many have stopped going to mosque again.
    In the meanwhile, while Hui Muslims calmly watched the 
persecution of Uighur Muslims, then they started looking for a 
way to negotiate with the government. After three major 
experiments with Islam, going from one extreme to another, 
Chinese leaders seem to have come down to their last bargain: 
the religion must be subjected to socialistic guidelines. 
Islamic practice is allowed only through officially trained 
imams armed with new interpretations. Recently, the Islamic 
associations have started to compile ``new interpretations'' of 
the Koran and standard Islamic textbooks. All 470 local Islamic 
associations are busy training young imams. A conference on new 
``interpretations'' of the Koran was held in Urumqi on 
September 9, 2003, foreshadowing the introduction of this new 
policy into the Uighur region.
    We hope the U.S. Government will take appropriate action to 
stop religious persecution in China, and to improve the ability 
of the Uighur people to practice true religion.
    [The prepared statement of Mr. Barat appears in the 
appendix.]
    Mr. Foarde. Thank you very much for those thoughtful 
comments.
    I would like to now go on and recognize Gardner Bovingdon, 
assistant professor of Central Eurasian Studies at Indiana 
University at Bloomington. Gardner received his BA from 
Princeton and his MBA and Ph.D. from Cornell. He conducted two 
months of field work in the Xinjiang Uighur Autonomous Region 
in China for his dissertation, ``Strangers in Their Own Land: 
The Politics of Identity in Chinese Central Asia,'' which came 
out in 2002.
    Before his appointment at Indiana University, Gardner 
taught at Cornell, Yale, and Washington University in St. 
Louis. He has published numerous journal articles and book 
chapters on the politics and historiography of Xinjiang. He is 
currently working on a book about development of the Uighur 
separatist movement in Xinjiang.
    Welcome, Gardner Bovingdon. Thank you for being here this 
afternoon.

STATEMENT OF GARDNER BOVINGDON, ASSISTANT PROFESSOR OF CENTRAL 
     EURASIAN STUDIES, INDIANA UNIVERSITY AT BLOOMINGTON, 
                        BLOOMINGTON, IN

    Mr. Bovingdon. Thank you very much. Thank you to the 
Commission for organizing this roundtable on an extremely 
important and timely topic.
    I want to preface my remarks on religious practice in 
Xinjiang by speaking about current news in the United States. I 
woke up this morning to Nina Totenberg talking about Brown vs. 
Board of Education, and I think it is very important, in this 
50th anniversary year, to reflect on the implications of that 
landmark decision. I think we can be proud of the recognition 
that the formula ``separate but equal'' is unworkable. We can 
be glad, also, of the existence of an independent judiciary, 
charged with interpreting the law and capable of making 
judgments at odds with the stance of the Executive Branch, and 
possibly in advance of shifts in popular attitudes.
    But another reason for thinking about Brown right now is 
that schools in many regions in the United States have become 
segregated again. Other news that concerns me includes recent 
discussion of the treatment of Iraqi prisoners, and late-
breaking information about possibly frivolous prosecution of 
the army's Muslim chaplain, Captain James Yee. My point here is 
that this is no time for us to be smug or superior, but instead 
to reflect on our own problems as we think about problems 
elsewhere.
    Nevertheless, I hope and believe that we can agree on 
certain bedrock principles, such as that persecution of peoples 
on the basis of religion or national identity is unacceptable, 
and that separate treatment almost always leads to unequal 
treatment. Yet discrimination and persecution of minorities are 
facts of our world. An independent judiciary is crucial to the 
protection of rights, and particularly to the rights of 
minorities. But a judiciary depends on an edifice of 
thoughtfully constructed and efficacious laws.
    I am going to build on the excellent presentations that 
preceded mine by speaking generally about the system of 
autonomy in Xinjiang, and then turn more particularly to recent 
policies there.
    As many people know, Xinjiang is one of five autonomous 
regions in the PRC. The rubric of autonomy commits China's 
Government to a special relationship with, and administration 
of, that region. However, as I am going to detail in a moment, 
it commits the Chinese Communist Party, the political 
organization still in charge of China, to almost no special 
procedural protections. The question then becomes, ``How much 
autonomy is there in Xinjiang? ''
    Now, to theory about autonomy. We live in a world of 
sovereign territorial states. The principle of sovereignty 
codified in international law, the bedrock of the U.N. Charter, 
stipulates domestically that each state be acknowledged to have 
full and unchallenged control over the territory it claims. The 
provision of regional autonomy found in various states is an 
intermediate fix to the problem of large, compact, 
unassimilated minority groups. It is intermediate in the sense 
that it lies between the idealized state sovereignty 
described above, and full self-determination for the groups in 
question. That is to say, there is no independent yardstick for 
autonomy.
    Those interested in evaluating autonomy of a particular 
case 
frequently begin by comparing a given state's paper commitments 
with the system as it actually functions. This makes sense in a 
legally minded constitutional democracy. In single-party states 
such as China, there is no necessary relation between laws as 
codified and actual administrative practice. This is so, in 
part, because existing statutes are intentionally vaguely 
written, and in part because there is no independent judiciary 
capable of reviewing the laws and promulgating authoritative 
interpretations of them.
    The Chinese legal scholar, Yu Xingzhong, writing on 
problems with the system of regional autonomy in the PRC, 
points to the crux of the matter as he says, ``China is still 
relying on policy, rather than law, to regulate its affairs.'' 
Our symposium, I think, demonstrates the perceptiveness of this 
remark. A single regional autonomy law hypothetically governs 
all the autonomous regions in question, and peoples, I should 
say. Yet religious practices permissible among the Hui are 
forbidden to the Uighurs. That is to say, Muslims in China 
confront separate and unequal treatment based on region and 
identity. It remains to ask why this is, and to ask, further, 
what is the nature of the unequal treatment?
    Turning, first, to the whys. Asked about the principal 
political issues facing them today, ordinary Uighurs frequently 
express desires quite at odds with those positions taken by the 
government in Beijing on matters such as emigration, family 
planning, oil exploitation, language and cultural policy, and 
religion, the subject of interest today. It appears to many 
people that ordinary Uighurs have very little influence over 
politics in the Xinjiang Uighur Autonomous Region. I will cite 
Chinese legal scholar Yu Xingzhong once again. As he says, the 
system reflected in the regional autonomy law ``certainly does 
not correspond with what is usually understood by the term 
`autonomy.' ''
    When we think about religious freedom, if we are raised in 
a liberal political order, we think, of course, of Lockean 
liberalism and political toleration. In the United States, of 
course, the U.S. Constitution is understood in the 
establishment clause to provide wide freedoms for religious 
practice. But there are limits, of course. Where religious 
groups advocate violence, they face surveillance, and possibly 
intervention. I think here of the Branch Davidians, and also of 
some Muslim clerics in the United States.
    Chinese Communist Party officials can argue--and indeed 
they do argue--that the PRC Government follows similar 
guidelines. The Constitution protects certain freedoms which 
have been mentioned. I want to come back to the nature of those 
freedoms in a moment. And it merely cracks down on behaviors 
which endanger others or threaten state security.
    The problem, as I see it, is that there is no independent 
judiciary to interpret what constitutes endangerment, what 
constitutes a threat to state security. We might remember that 
the very phrase ``the threat to state security'' was developed 
as a catch-all phrase to replace, in 1997 or thereabouts, the 
old term ``counter-revolutionary activities.''
    If we look more closely, we observe a crucial difference in 
the understanding of religious freedom between the two cases 
under consideration. As has been mentioned already, and I want 
to repeat this, the Communist Party and the Constitution have 
never advocated religious freedom. Instead, the several Chinese 
Constitutions have consistently supported only a freedom of 
religious belief. This is spelled out as the freedom to believe 
or not to believe, without interference with others.
    Despite the unambiguous wording of the Constitution, 
neither believers, nor beliefs, have ever enjoyed absolute 
protection. I need only mention the case of Falun Gong to make 
clear that there are limits. There, the Chinese Government has 
made a clever move by declaring that Falun Gong is not a 
religion, but a cult, and therefore does not enjoy the usual 
constitutional protections.
    I want to suggest that the failure to codify protections of 
religious freedoms or religious practice was not an oversight. 
The Party-state was, from 1949, concerned about the legacy of 
colonialism and missionary activities in China. It is 
understandable that they made this move. It was also, of 
course, concerned with the political uses of religion. It seems 
quite clear that it was the organization and concerted action 
of members of Falun Gong, rather than their beliefs, that 
officials found so troubling. Similarly, the Party is concerned 
about Uighur Islamic beliefs and practices because it is 
concerned about Uighur political aspirations.
    Dr. Barat has already discussed at some length policies 
during the Maoist and early reform periods. Let me turn to the 
late reform period and take a slightly different tack. From 
1978 on--that is to say, from the beginning of the reform 
period--the Party allowed some mosques to be reopened and did 
not prevent some new construction of mosques. It allowed some 
clerics to return to religious services and permitted the 
restoration of mosque attendance and religious holidays. But 
accompanying the modest loosening of some regulations has been 
tightening of others. For instance, the government stops the 
construction of mosques where officials judge the number 
``adequate to people's needs.'' It has dismissed a large number 
of clerics, subjected remaining clerics to patriotic education 
and loyalty tests, and stipulated that all newly trained imams 
be trained and vetted in Urumqi. It has promulgated a doctrine 
forbidding illegal religious activity without codifying in law 
what constitutes legal activity.
    And given my time constraints, I will not go into detail 
about this. We can come back to this in the question period.
    What I want to say, in general, is that the distinction 
between legal and illegal activity is created and revealed by 
government action rather than being closely defined in law that 
authorizes government behavior. There has been a more radical 
set of policies seeking to eliminate religion at the root. 
Thus, students face compulsory classes in atheism from 
elementary school on, and the government has stated explicitly 
that, while citizens in the abstract enjoy full freedom of 
religious belief, Party members and students do not. As one 
policy text puts it, these people have only the single freedom 
not to believe, an expression I find rather amazing.
    To sum up, how ought we to understand religious belief and 
practice in Xinjiang? I want to suggest that we cannot 
understand Islamic piety or practice in separation and 
isolation from politics. But at the same time, we should not 
simply reduce it to politics. I think, unfortunately, many 
officials and many external observers have done precisely that.
    Of course, Uighur religiosity has political content, and 
state interventions have, indeed, politicized it further. But 
we should understand it first as an expression of individual 
and collective choice, a manifestation of long and deeply held 
values. We should hope to see, I say, a clear and consistent 
body of law protecting religious belief and practice applied 
equally across regions and peoples and interpreted by an 
independent judiciary.
    I welcome questions.
    Mr. Foarde. Thank you very much, Gardner Bovingdon.
    We will go to our question and answer period in just a 
moment, but I wanted to give our panelists a chance to catch 
their breath and say that the statements from today's 
roundtable will be available on the Commission's website, 
www.cecc.gov, and in a few weeks the formal transcript will be 
available after our panelists have had a chance to correct 
minor errors of grammar, and what have you.
    Let us go on to the question and answer session. Again, 
each of us will ask a question and hear the answer for about 
five minutes, and we will keep going around.
    I would like to kick off things by asking Dr. Barat, are 
there other traditions of Islam that are practiced widely in 
Xinjiang, for example, Sufism or Ismailism, any of the other 
ones? In fact, any of you can step up to that, if you would 
like.
    Mr. Barat. I do not know that much. But generally, the 
whole region is Sufism and other sorts of things. 
Naqshabandiyya was traditionally introduced. The other parts, 
we recently heard some Wahabi or even Mujahid. Those words do 
not exist in the standard Uighur dictionary, but we heard that 
from people there. Uighur is part of the Sufi area.
    Mr. Foarde. So it is mostly Sufi. And there is no Shi'ia or 
no difference between Sunni and Shi'ia in Uighur Islam?
    Mr. Barat. China sent two students to Iran where they 
learned Shi'ia. That scared the Uighurs because we do not know 
Shi'ia. Now, who is introducing Shi'ia?
    Mr. Foarde. I will go on and recognize my friend and 
colleague, Dave Dorman, who represents Senator Chuck Hagel, and 
is the Deputy Staff Director of the Commission.
    Dave.
    Mr. Dorman. Good. Well, first of all, thank you to each of 
you for coming today and helping us understand what is clearly 
a complex issue that we tend to look at too simply. So, again, 
thank you for that.
    I would like to just ask each of you a quick question based 
on your testimony. I will start with Dr. Bovingdon.
    I wonder if you could comment briefly on the extent to 
which Uighurs participate in either local or regional 
government, and if that occurs, how would you judge the 
efficacy of these individuals in either affecting the system or 
affecting policy in a way that would benefit Uighurs in that 
area, either in terms of religious practice or local political 
control?
    Mr. Bovingdon. These are good and important questions, and 
you will forgive me for saying they are too complicated to 
answer directly.
    Mr. Dorman. I understand.
    Mr. Bovingdon. In answer to the first part, Uighurs do 
participate in government in substantial numbers, particularly 
at the lower levels. They are not, I would say, represented 
according to their proportion in the population at the higher 
levels of governance. What is more, it is popularly believed 
that Uighurs are selected for government service on the basis 
of their pliability. That is to say, people who are more likely 
to press for policy concerns inimical to the aims of the Urumqi 
and Beijing Governments are less likely to serve in the first 
place, and much less likely to be promoted.
    Second of all, while the law on regional autonomy 
stipulates that members of the group exercising autonomy in a 
region should be represented ``in a certain proportion,'' as 
the language goes, in the government structure, it makes no 
similar stipulations about Party membership.
    Indeed, when you turn to Party membership you find that 
Uighurs are drastically under-represented. As we know, to the 
present day, the Party at any level outranks the government at 
the same level. Therefore, in what is still an overwhelmingly 
Han organization, you find most of the power.
    Mr. Dorman. Dr. Barat, would you like to comment on that? I 
have an additional question I can hold for the next round, but 
if you would like to comment on that question, that would be 
fine.
    Mr. Barat. Those puppet Uighur leaders are under tight 
political restriction. In the last few years, the Hui secretary 
of the Xinjiang Uighur Autonomous Region has a high chance of 
being expelled, and another very high position which is 
political, the committee's Hui chairman, is also being 
expelled, having done very little wrong, basically because they 
did not listen to what the Chinese said.
    Mr. Dorman. Dr. Barat, I was just going to ask you, based 
on your very interesting testimony, for more information on the 
``new interpretations'' of the Koran and other Islamic texts.
    Could you explain to us in more detail exactly what that 
means, how often these ``interpretations'' take place, and is 
this a national phenomenon or is this something that only 
applies to areas of western China?
    Mr. Barat. This is a very new policy--it is not older than 
three years. It originated from Beijing and the Chinese Islamic 
Association. It has called the ``new interpretations.'' It has 
been approved by Communist leaders as a good idea and important 
to keep doing.
    It has experimented in the Hui area. From this year on, 
this was first planted to the Urumqi Uighur area to do that. It 
reinterpreted every Hadith and Koran in a new way. I read some 
of the interpretations. They do not create a new 
interpretation, but rather they create an interpretation that 
has lots of guidelines.
    You pick up the interpretations to fit those guidelines, 
and if nothing fits to that one--religion can be interpreted in 
a million ways, so it is very easy to pick up interpretation 
from the Hadith and Koran that only pick up the things that the 
guideline says, you are allowed to say this, that, and that. 
That is the one. So, it is a kind of new policy, new movement 
going on right now. This is China's new policy.
    Second, they are training the imams with the new 
interpretations and the new Koranic textbooks, something like 
that. I think that is a new policy. It has been introduced in 
the Hui area, and now transferred to the Uighur area.
    Mr. Dorman. Yes. Please go ahead.
    Mr. Lipman. I cannot comment on the content of the new 
interpretations, but structurally they are being promulgated 
from the center, from Beijing, an institution that is located 
in Beijing called The Institute for Islamic Canonical Studies, 
or scriptural studies. It has been working for some years, 
using people who were both trained in religion and people 
trained otherwise in minority studies and in Chinese Islam 
relations, history, and so forth to create an interpretative 
structure which suits the policies, as Professor Barat said, 
the guidelines of the current regime. These are being 
promulgated officially by the state.
    Mr. Dorman. Please, Dr. Barat, go ahead.
    Mr. Barat. People call them ``red imams,'' and right now 
the religious teaching is separated into two schools. It is not 
Sunni and Shi'ia, but red and normal. Red imams must openly say 
the Party's policies and propagate the Chinese policy to the 
religious community. That is their political duty. They are 
trained and licensed. It is their job to do it.
    In one way they may prevent some extremist ideas or 
fanatical ideas. Maybe that is what is in their minds. But in 
reality, the bottom line in society, they are creating a gap in 
between the formal official version of Islam and the regular 
version of Islam.
    Mr. Foarde. Useful. Thank you.
    Now I would like to recognize Susan O'Sullivan, who 
represents one of our CECC members, Assistant Secretary of 
State for Democracy, Human Rights, and Labor Lorne Craner.
    Susan.
    Ms. O'Sullivan. Thank you, John. Thanks to the panel for 
excellent presentations. Since I work at the State Department, 
we have a particular interest in religious education of minors. 
It is something we bring up in our human rights dialog. John 
Hanford, our Ambassador-at-large for International Religious 
Freedom gives a great deal of attention to it when he is 
talking to his counterparts in China.
    I am wondering if you could give me a little clearer sense 
of what you think the situation is for minors in terms of 
religious education. I understand there are some local 
regulations which govern religious training. There is religious 
training going on in the home, and these people are getting 
into trouble, just what it is. The Chinese are telling us that, 
nationwide, there are no restrictions on religious education, 
but we cannot really get a clear picture of what is happening 
in Xinjiang. So, anything that any one of you might want to say 
about that situation would be useful. Thank you.
    Mr. Foarde. Why don't we let Jonathan start, then we will 
go right down the row.
    Mr. Lipman. I cannot say much about Xinjiang because my 
work has been in what is usually called ``the interior.'' But 
the notion that there is no restriction on religious training 
must, of course, be modified by the regulation which has been 
promulgated, that it is illegal to teach religion to anybody 
under the age of 18. That is kind of a contradiction.
    Ms. O'Sullivan. Right. That is a problem.
    Mr. Lipman. And it generates some structural difficulties. 
In the Hui areas that I have visited, which run from the 
northeast all the way around the southwest, young people--
including people under 18--do receive religious instruction, 
often openly, in the mosque. This is usually seen as a 
supplement to their ordinary public education, rather like 
religious school after school would be here in the United 
States.
    I did meet in the northwest a number of students who were 
full-time students in the mosque, but they were older. They had 
already completed the public education curriculum and they were 
over 18.
    To me, the more important question is, who is training the 
people who are teaching? It is fairly clear that the state is 
taking a greater and greater role in the training of imams, 
though this is much more marked in Xinjiang than it is 
elsewhere in China.
    The number of Hui imams remains relatively stable. There 
has been no marked decrease. Those folks were not primarily 
trained by the state. In Xinjiang, however, as my colleagues 
will tell you, the situation is radically different.
    Mr. Barat. Private teaching was shut down many years ago 
and thousands of Talib students arrested, and teachers 
arrested. On the contrary, a funny thing happening is that all 
local Islamic associations right now, seminar by seminar, in 
some little town they gave already finished the fifth grade of 
the seminars to train young imams. Here, they are arresting the 
local original private schools. All are gone, no more. On the 
other hand, the state-funded Islamic associations are training 
young imams. I read some articles that two seminars lasted, 
like, six months. Some seminars are three months.
    I think they are very busy working to supplement each 
mosque with their own imam, but the mosque has so many. So in 
order for each mosque to have its own red imam, they are very 
busy training their own people.
    So in the Uighur area, private teaching is finished and all 
the Talib students who learned previously are in prison right 
now, or at least most of them. But new imams are coming up with 
the new interpretations and they are in new posts and on a new 
mission, which I explained before.
    Mr. Bovingdon. Let me just add to that excellent testimony 
that official sources that I have make it clear that while--let 
me back up. I said in my opening statement that it is not 
always clear what constitutes legal and illegal religious 
activity. Official texts that I have make it clear that the 
government considers educating children in religion to be 
``illegal religious activities.'' I have in front of me a 
paragraph from a text that I translated that describes illegal 
religious activities once again infiltrating schools, mines, 
factories, and businesses, and mosques in Ili offering courses 
in religious propaganda to students of 5 to 15 years old. So it 
makes it quite clear that this is considered illegal religious 
behavior. The other thing that I would add is that even though 
it has been described as illegal and prosecuted as illegal for 
years, such sites continue to emerge, that is to say, to be 
exposed, on a regular basis. So, it is still going on.
    Mr. Foarde. Useful. Thank you very much.
    Christian Whiton represents Under Secretary of State for 
Global Affairs Paula Dobriansky, one of our Commission members.
    Christian.
    Mr. Whiton. Thank you, John.
    A question in regard to trends. With the repression of 
Muslims in China, is that correlated with a rise in repression 
of Christians, and especially with the recent activities 
against Falun Gong? In other words, do you view the anti-Muslim 
activities by the government as independent, or do you think 
they are tied to those other activities--this uptick, if you 
can describe it that way, in anti-Muslim sentiment by the 
government? Any of you can answer that, but perhaps, Dr. 
Lipman, you can start.
    Mr. Lipman. It seems to me that the power of the state to 
define what religion is lies at the heart of the problem. There 
are legal religions in China. The constitution guarantees 
religious freedoms and defines ``religions'' as including, for 
example, Christianity, Islam, Buddhism, and so forth. But any 
religious activity deemed a threat in any way by the state can 
be defined by that same state as illegal, because it is illegal 
religious activity. That is, it can be zongjiao, it can be 
religion, or it can be heterodoxy. By maintaining its own 
entire power to define what is and is not illegal religious 
activity, the Chinese state can be highly selective in how it 
deals with religious organizations so that Falun Gong, 
perceived as a threat, can simultaneously be persecuted at the 
same time that the Buddhist monastery at Shaolin, for example, 
is made into a major tourist attraction.
    Certain kinds of religious activity in Tibet can be 
encouraged, while others are discouraged, simultaneously. I do 
not see any direct connection between a crack-down, let us say, 
on Falun Gong and particular activities vis-a-vis Islam.
    Indeed, within the state's relationship to Islam, we can 
find, as our testimony indicated, simultaneous repression in 
one place and liberalization in another, so that there is not a 
single trend vis-a-vis religion that I have been able to 
isolate.
    Mr. Barat. Religious persecution in the Uighur region, or 
East Turkestan, is Uighur ethnic targeting. So, I have not 
heard that hundreds of thousands of Talib Uighur Muslim 
students are in prison right now. I have not heard of Kazakh, 
Hui, Kyrgyz, or other minorities which are also Muslim, that 
they have students in prison. No.
    Mr. Foarde. You have plenty of time, Christian, if you want 
to ask another question.
    Mr. Whiton. If I could ask a follow-up to Dave's question 
of Dr. Bovingdon. With the presence of Muslims in Chinese 
officialdom, does that extend to the People's Liberation Army 
as well? Do you see Muslims there, and are they allowed to 
practice their religion in the army?
    Mr. Bovingdon. There are clearly Uighurs, Kazakhs, and 
others serving in the army, but not, as far as I know, in large 
numbers. I would be extremely surprised to learn that they were 
allowed to practice. As I have already said, it is made 
explicit that Party members and students are forbidden to 
practice. I have never seen explicit reference to soldiers. 
But, once again, I would be extremely surprised to learn that 
they practiced Islam openly.
    Mr. Foarde. Does anybody else have a comment?
    [No response.]
    All right. Let us go on. I would like to recognize Rana 
Siu, who also comes to us from the Office of Assistant 
Secretary of State for Democracy, Human Rights, and Labor Lorne 
Craner.
    Rana, welcome. Please go ahead.
    Ms. Siu. Thank you. Thank you to the panelists for their 
presentations.
    My question is about participation in the Hajj pilgrimage. 
What is the PRC Government's policy on this? Do you have 
estimates of Hui and Uighur Hajj participants?
    Mr. Lipman. It varies from year to year. There have been 
slightly longer term trends that one can recognize. In that 
same early, one could say ecstatic, period of reform from 1978 
to 1989, fairly large numbers of pilgrims from China did go on 
the Hajj, numbering at least in the thousands. The last time I 
was at the Islamic Association in Beijing, they talked of 
3,000. That was about four years ago. A number of those--though 
I could not get exact statistics--were government-supported 
pilgrims. That is, the Islamic Association has a fund of money 
available to send pilgrims on the Hajj, and it does so. Indeed, 
one of the officials responsible for that was widely thought to 
have moved from the northwest to Beijing to take the job in 
order to make some extra cash from the contributions of those 
who wished to take their places in the government Hajj. That 
private people can also go on the Hajj is clear in Hui 
communities.
    I cannot say about Xinjiang, about the Uighurs, but I have 
met Hui who have been on the Hajj at their own expense. They 
usually take a different route than the government-sponsored 
pilgrims and they try to do it as inexpensively as they can.
    Some regulation comes not only from the Chinese end, but 
also from the Saudi end, in which the Saudi Government limits 
the size of delegations. The Saudis have made some contribution 
every year for some hundreds of pilgrimages to be made by 
Chinese Muslims and those contributions have been funneled 
through the Islamic Association.
    Mr. Barat. For the Uighurs, the Hajj was started, if I am 
not mistaken, in 1956 or 1957. Then for 10 years, it stopped 
during the Cultural Revolution, until after the ``reform and 
opening up'' policy was announced, and then it opened again. 
China is using the Hajj and Islamic school Koran recitation 
conferences perfectly to please the Islamic world.
    This is one of their propaganda tools, or very nice 
diplomatic means to show that China is good to the Islamic 
world. So, they are now both making money and sending Hajjis to 
the Islamic world for all kinds of purposes.
    Mr. Bovingdon. I would simply add to that--I am, 
unfortunately, unable to provide numbers--the Chinese 
Government was quite generous in the 1980s in providing funds 
for many Uighurs, including some officials, to make the Hajj. 
So this was, in fact, a high point for freedom to pursue that. 
It was also, of course, a period of great economic growth in 
Xinjiang, and large numbers of private individuals developed 
the wealth sufficient to make that trip. I think that continued 
until the early 1990s, and then I think political developments 
in the region made the government rethink it, so that the 
numbers are drastically reduced these days.
    Mr. Foarde. Let me move on and recognize our colleague, Ann 
Tsai, who is responsible for organizing today's roundtable. 
Unfortunately, I have to begin on a melancholy note. This is 
Ann's last issues roundtable with us.
    After two years, she is going to move on to a new 
opportunity beginning next week. We are very sad to lose her, 
but we are very happy to have had the benefit of not only her 
collegiality and good company over the last two years, but also 
her fine work on this roundtable. Your turn for some questions.
    Ms. Tsai. Thank you, John. I was not expecting that kind of 

attention here. Thank you so much, to all three of the 
panelists. Actually, I have a question on a slightly different 
route than we have been asking. I have a question about Islamic 
law and whether or not that is used at all, or to any extent, 
in Muslim communities, and what variation it might be used in 
China among the various Muslim communities.
    Mr. Bovingdon. I would say that Islamic law, as a law 
binding public behavior, and Muslim clerics, as interpreters of 
the law, were, if not the first, one of the first things that 
the Communist Party did away with when it took control in 
Xinjiang. As far as I know, neither of those has changed since.
    Mr. Barat. No other power. But three things are always 
consistent. One, is circumcision has to be done by an imam. And 
when you get married, when you are a Muslim, it has to be read 
by an imam. When you die, you must be prayed over by an imam. 
Those three remain, as always. No other power. This has become 
partly religion and partly tradition.
    Mr. Lipman. I think it is important, when we talk about 
Islamic law in the context of China, to recognize that there is 
a way in which the Chinese state has effectively given itself 
the power to regulate sharia, not as an alternative system of 
law, but as something that it had not been before, but it has 
become, namely minzu fengsu xiguan. That is, ``ethnic customs 
and habits.'' By regulating communities with ethnic customs and 
habits, Islamic leaders perform a service to public law and 
order, as long as that does not come into conflict with the 
interests of the state.
    If I might be permitted an anecdote, in Xi'an city, a 
committee of local people, led by a courageous imam, began to 
agitate some years ago for an end to the serving of alcohol in 
restaurants in and around the Muslim quarter. This practice was 
offensive to Muslims. But, of course, there were 
restauranteurs, some of them Muslims, who were willing to serve 
alcohol to guests in order to make some money. And that 
committee, the Anti-Alcohol Committee, had a very popular run 
in the late 1990s in which they organized, and demonstrations 
were held, and sermons were given in mosques, and so forth, 
against the consumption of alcohol, which is, of course, 
forbidden by Islam.
    The state found this congenial for a while, but in the late 
1990s the committee was shut down. The scholar who has written 
about this subject the most conjectures--although there is no 
direct evidence of this--that the anti-alcohol campaign began 
to threaten the local authorities' control of what constitutes 
civilized and modern behavior. That is, by maintaining an 
alternative view of modernity and of being civilized, namely 
that one ought not consume alcohol, the Anti-Alcohol Committee 
was usurping the functions of the state, and therefore the 
Anti-Alcohol Committee was shut down.
    The reason for its being shut down, of course, is that it 
was branded an illegal organization, feifa zuzhi. So as soon as 
something becomes a threat to the state, for example, the 
prohibition of alcohol by Islamic clerics, it can be declared 
outside the realm of legality.
    So, we have a fascinating problem in which the state can 
choose to allow Islamic law to function when it serves state 
interests, when it serves law and order, but can choose not to 
allow it to function when it constitutes a threat in one of 
many different ways.
    Mr. Barat. In 1997, 1996, around there, Uighur youth, young 
imams, organized a kind of collective gathering, and there they 
came up with a similar story to comdemning alcohol as bad, 
because at that time--alcohol is a drug that has resulted in 
all kinds of bad things. It has become very bad in society. So 
the government cannot do anything, does not want to do 
anything. Now the religious people came and stood up and then 
called upon people to stop doing this because this practice is 
wrong, this practice is anti-religion. It worked so well, in 
1996 and 1997 in the Ili region, that alcohol consumption was 
reduced 60 percent.
    Mr. Bovingdon. I would only add, if memory serves, that the 
government condemned and cracked down on meshreps in 1995.
    Mr. Barat. 1995, 1996.
    Mr. Bovingdon. And a particularly interesting episode is 
chronicled in the dissertation of one of our colleagues, who 
writes that these meshreps organized a soccer league in the 
Ghulja area and the soccer tournament that was to take place 
was closed down when the government occupied the soccer fields 
as a way of making sure it did not happen.
    The argument there is very much consistent with what 
Professor Lipman said a moment ago, that the government became 
concerned when it was clear that there was some social capacity 
in these organizations that was not controlled by the state.
    Mr. Foarde. Thank you all very much. I would like to 
recognize the general counsel of the Commission staff, Susan 
Roosevelt Weld, for some questions.
    Susan.
    Ms. Weld. In a certain way, this is very similar to the 
last question. But we are taught that a pillar of Islam is 
charity. Early in Islam they developed trusts to do charitable 
things, like run schools, pay for hospitals, feed the hungry, 
and so on. I wonder if that pillar of Islam is expressed in 
either Muslim society in China--among the Hui or among the 
Uighurs. Is this something that would be threatening to the 
Chinese state? Or is it something that would be useful to the 
Chinese state to help cope with problems like the lack of 
public services?
    Mr. Lipman. Charity continues as one of the basic duties 
within any Muslim community. The donations that are given to 
the mosque and to other local institutions still constitute an 
important part of the social services that are available within 
the Hui communities that I have studied. Zakat, the endowed 
property, also continues to exist, although I have never seen a 
formal endowment document. Such documents have traditionally 
existed in Muslim societies.
    I have never seen one, but I do know that mosques and 
foundations own property, including, for example, real estate, 
apartment buildings, and so forth, the proceeds from which can 
help to fund local religious institutions, including schools 
and relief to the poor. It is still the case that donations of 
particular kinds, whether in cash or in kind, are given to the 
mosque, particularly around the month of Ramadan, and that 
charitable giving constitutes an important part of the 
obligation of every Muslim. We have no data of any kind on how 
many Muslims continue to fulfill that obligation.
    In the Hui communities, I have never seen any evidence of 
state antipathy for such donations, as long as the mosque 
functions which they support, the religious functions that they 
support, continue to remain within the guidelines of state 
interest.
    For example, Sufi tombs in Ningxia and in Linxia in 
southern Gansu have continued to be supported at a very high 
rate and to have new construction of many kinds. Beautiful new 
buildings and so forth have been built in these tomb complexes, 
all based on the charitable giving of the local Muslims. Just 
to give you an example, one successful operator of a sesame oil 
press in a village outside of Ningxia boasted that he had, last 
year, given 30,000 yen to the local mosque.
    Mr. Foarde. Does anybody else have a comment?
    [No response.]
    You still have some time, Susan. Ask another question.
    Ms. Weld. I wanted to ask all of you, you mentioned 
foundations. Are those set up with a document?
    Mr. Lipman. I have never seen such a document, no.
    Ms. Weld. Are they a legal entity?
    Mr. Lipman. As I said, I have never seen a document 
establishing such a foundation, but that a mosque owns real 
estate, I do have evidence.
    Ms. Weld. There are laws now in China providing for both 
trusts and foundations. I believe so. I wonder if it is 
possible for an entity such as an Islamic group to use those 
vehicles.
    Mr. Lipman. I have heard of various kinds of Islamic 
voluntary associations, though whether any of them hold zakat, 
whether they hold property, I could not say. But there are 
voluntary associations which can incorporate as legal 
organizations under the category of minzhen, people's 
organizations.
    Ms. Weld. Thank you.
    Mr. Barat. Most of the charity monies in the Uighur region 
go to building private mosques. After the recent earthquakes in 
Kashgar in the southern Xinjiang region, I heard reports that 
such and such individual donated how much money, something like 
that. They, I think, gave it through local Islamic associations 
or mosques to send money to the earthquake region.
    Mr. Foarde. I would like to hand the microphone over to our 
friend and colleague Steve Marshall, who works on several 
important matters for us on the Commission staff, including 
Tibet and prisoners.
    Steve.
    Mr. Marshall. I would like to ask a question about 
education, about the family and the child with respect to 
Islam. Article 36 of China's Constitution says that nothing can 
interfere with the education of the state.
    Parents obviously have a strong interest in their 
children's education, including their religious or spiritual 
education. Teachers in schools, ordinary schools, often have an 
interest in the spiritual education of children, as well as in 
their normal education. Can you say something about the 
position of the parent and the position of the schoolteacher 
with respect to their right or capacity to have some sort of 
influence on children and religion? Anyone?
    Mr. Bovingdon. Some of the same documents to which I 
referred earlier point out, for instance, cases of teachers who 
have refused to stop announcing that they believe in Islam and 
attempting to teach Islam, even on pain of being fired, which 
is a roundabout way of suggesting that anyone who openly 
professes Islam as a teacher and intends to teach it in the 
classroom, or is reported to have done so, can be fired.
    I think no government in the world can intervene completely 
in family dynamics and prevent intra-familial religious 
transmission, but I do know that parents are quite afraid, (a) 
of running into trouble for teaching their children in the 
wrong context; and (b) conversely, of not being able to teach 
their children about Islam. This is a widespread concern about 
which people speak.
    Mr. Barat. State school teachers are absolutely not allowed 
to mention Islam any more at present. The Kashgar Pedagogic 
Institute professors are being expelled from the school in 
their old age because they went to the mosque and they attended 
prayers. Working for life as a teacher, and now expelled from 
school without their pension, without their retirement, imagine 
what is going on.
    In 2002, the Hotan region's Educational Bureau decreed, 
when the new school started, every student, third grade and 
above, which is 10 years old, must write a 1,000 word political 
assurance before starting school. This is psychological 
torture. How can a 10-year-old kid can write a 1,000 word 
political assurance? I cannot write that much. And one of the 
homework assignments is did your parents teach you religion? No 
lying. If any parents teach religion, the student must write it 
down in their homework. The next day, their parents are in 
trouble.
    Mr. Lipman. From both Uighur and Hui areas, there is 
considerable evidence that parents do try to give their 
children some Islamic education at home. This can range from a 
fully orthopractic training in prayer to customs and habits, if 
you will, pork avoidance, and so forth.
    I have heard stories both in Xinjiang and in other 
provinces of China of people being fired from their jobs, of 
teachers, especially, being particularly vulnerable to charges 
of illegal religious activity because they went to a mosque.
    But it can get more extreme than that. I did hear from one 
Uighur informant that, in his children's school, all the male 
teachers had to cut their moustaches, because wearing a 
moustache was seen as an Islamic expression.
    There have been a number of new stories, though I have no 
independent verification of them, of young girls in Uighur 
schools being criticized, or even sent home, for covering their 
heads or wearing skirts that were too long. Now, of course, 
comparisons to France are invidious.
    Mr. Foarde. But inevitable.
    Mr. Lipman. But inevitable. Exactly. The Chinese state has 
determined that putting this out as a national policy would be 
ineffective, but practicing it locally can be effective in 
preventing strong Islamic identity from developing in children. 
Most poignantly, I met a young Uighur man in Kashgar who told 
me he was extremely worried about his young son, who was three, 
because his wife is quite a pious person and had taught the boy 
to pray. This young man was extremely concerned about what 
would happen when the young boy went to school, where it might 
be exposed that he had been taught to pray. It was a matter of 
considerable anxiety to him.
    Mr. Foarde. Very useful. Let me pick up for a couple of 
questions relating to things in your opening statements.
    Jonathan Lipman, you talked, I think, in the context of 
perhaps some Hui communities in Shandong about internal 
violence within Hui groups. Could you expand on that and 
enlighten us a little bit on what the dynamics of those are?
    Mr. Lipman. Not in Shandong. There was a list. The Shandong 
incident to which I referred was three years ago and it 
involved violence between Hui and non-Hui.
    Mr. Foarde. Oh, I see. I see.
    Mr. Lipman. The violence within Muslim communities to which 
I refer took place in southern Ningxia, and it involved the 
succession to leadership of a local Sufi order. Two different 
candidates were available for the leadership to become the Shah 
of the order, and violence broke out between these two groups, 
some of it quite extensive.
    I have heard figures as high as 50 people killed. The army 
did go in and the violence was solved by the presence of the 
state, which then sent large numbers of so-called nationality 
cadres, minzu ganbu, to the area where they basically talked 
the problem to death for many months. By the end, when the 
problem was openly revealed in the public media, several of the 
leaders of one of the two groups were doing several years in 
prison each and the problem had been solved.
    So, that is the kind of violence that might take place. Dru 
Gladney has also told a number of very interesting anecdotes 
about conflict between Muslim groups in places like Linxia in 
southern Gansu, and also in Yunnan. But I believe that that 
kind of conflict has not taken place in the eastern cities. You 
do not find it in Beijing or in Zhengzhou, or in the other 
large communities of the east coast.
    I think it is highly localized and it does tend to involve 
either Sufi orders, or in a few cases that I have heard of, 
recent converts to a more Saudi-oriented form if Islam, which 
is usually, I think, perhaps erroneously called Wahabi.
    Mr. Foarde. Very useful. Kahar Barat, you referred twice to 
privately funded mosque construction. I am very interested in 
that, but mostly interested in knowing where does the money 
come from? How does a community of worship raise the money to 
build a mosque, and do they run into any difficulties with 
local authorities in getting the permits necessary to build?
    Mr. Barat. In an official report I read from Garmenside, 
they said they illegally built private mosques. That means that 
lots of village places had an increase in praying people, and 
they needed a praying house, so they donated land, maybe, a 
yard, house, small mud-brick houses, and possibly just 
privately funded mosques as prayer places. I think by now, 
today, they are all gone.
    Mr. Foarde. So you would not find any new privately funded 
construction going on at this moment in Xinjiang?
    Mr. Barat. No. The new, current construction, I told you, 
that was just a short, less than 10-year period. That is what 
happened. Afterward, now, everything has gone downhill. I do 
not think there is any single private mosque being built these 
days.
    Another anecdote similar to this one. The Talib, which is 
the student protest movement, was involved. In early 1997, two 
Uighur families were murdered by bad people. At the same time, 
in the black market they found a U.S. dollar which was used by 
the Talib--Talib means religious student--who was somehow 
involved with black market money. Then relating to that dollar, 
which has a blood stain on it, the authorities said, ``the 
Talib killed this family.'' The Talib protest movement started 
and lasted nearly two years. That spread from Ili to Urumqi and 
Kashgar, and Hotan. I called and spoke to the policeman who 
defected. He said that 20,000 Talibs were arrested just because 
of the one dollar. During this mass arrest movement, they 
finally broke the case and the true murderer was a Chinese who 
had a name, who had an address, who was in the Xinjiang 
Province. They knew where he was. When the Uighur police asked 
the Chinese police chief, why do we not go to Xinjiang to 
arrest him, the Chinese police said, we do not have money to 
arrest him.
    Mr. Foarde. Thank you. Let me hand the microphone to Dave 
Dorman for more questions.
    Dave.
    Mr. Dorman. I have just a quick follow-up question for each 
of you on your opening testimony.
    Professor Lipman, to follow up part of John's question, I 
think in your opening testimony you referenced instances where 
the PRC Government negotiated successfully with local Hui 
communities.
    Mr. Lipman. Yes.
    Mr. Dorman. You gave us the example of the Anti-Alcohol 
Committee, which I thought was going to be a successful example 
and turned out not to be. Could you give us an example? Were 
you referring to negotiations that would affect religious 
practice?
    Mr. Lipman. No, though they may involve the location of 
religious institutions. The negotiations that I have studied--
and I know there are others, but I have not studied them in 
detail--have involved urban renewal projects. That is, Hui 
Muslims lived in many quarters that were relatively self-
contained in large eastern cities from Xi'an eastward, 
Zhengzhou, Jinan, Beijing, even Shenyang up in the northeast.
    In those quarters, as part of the reform movement desire to 
renew Chinese cities, to take out the old markets, the old one-
story houses, to build modern apartment buildings with flush 
toilets and all the good things of modern life, a number of the 
propositions were made that these quarters be razed. The local 
Hui, many of whom were quite poor, would probably not have been 
able to afford to live in the new housing that was to be built 
in replacement of the housing in their old quarter and would, 
therefore, have to scatter to the suburbs.
    In some places, this did happen--Beijing is a good 
example--in which the rather compact Muslim quarter of Niujie, 
of Oxen Street, has been largely, but not entirely, scattered 
out into the suburbs.
    In some communities, the local folks banded together, as 
legally as they could, to negotiate with the government, 
sometimes through the Minorities Commission, sometimes through 
the Religious Affairs Commission, to hang on to their quarter.
    The success story that I know best is Zhengzhou in northern 
Henan. There, the local Muslims negotiated successfully with 
the government to build public housing projects in the old 
Muslim quarter so that the Hui would be able to afford them. 
So, now you have relatively nice, new apartment buildings built 
around the old mosques in the Muslim quarter. So, that is an 
example of a successful negotiation.
    One that is ongoing and that I would commend to your 
attention is in the city of Xi'an, where until at least a 
couple of years ago, the last time I visited, there had not 
been any major renewal of that one quarter of the city. The 
rest of Xi'an has been done, but the Muslim quarter, the Hui 
minfang, has not. The Hui mingfang of Xi'an is not a 
particularly hygienic place, but the folks who live there like 
it and they wanted to hold onto it. They have no objection to 
better housing, but they do not want to be scattered to the 
suburbs, especially since there are 13 mosques right there in 
the quarter, and several of them are historic mosques and the 
others are centers of the community. If the people were forced 
to move, they would not be able to do so with their mosques.
    So, they are negotiating. This is a place where I have seen 

voluntary association work remarkably well. There is an Islamic 
Cultural Society that was set up by local residents to study 
these problems. They actually did survey research in the 
quarter and published the results in their own little journal 
to persuade the state and its local representatives to deal 
with them. They did it seriously and the did it legally. That 
is very important. They made sure that they got permission at 
every level to organize these societies in order to keep their 
quarter whole. They have succeeded so far, at least in 
preventing urban renewal from scattering them. They have not 
yet been able to negotiate, as the Zhengzhou Muslims did, a new 
quarter for themselves where they can afford to live.
    Mr. Dorman. Good. Thank you.
    Professor Bovingdon, in your opening statement you referred 
to the striking differences--I think I may have added the word 
``striking,'' not you--in allowable religious practices for Hui 
and Uighur communities. Has the PRC Government commented on 
these differences publicly or acknowledged them? If so, what 
does the PRC Government present as the reason?
    Mr. Bovingdon. I am not aware of the government ever having 
said, we treat Hui Islam and Islamic practice differently from 
Uighur Islamic practice. As far as I know, the standard 
strategy is simply to say that the government is cracking down 
on illegal religious behavior, which, as I said, is vaguely 
defined, such that it can be locally interpreted. But there has 
never, to my knowledge, been an explicit acknowledgement of 
different treatment.
    Mr. Lipman. Could I add one sentence to that?
    Mr. Dorman. Sure.
    Mr. Lipman. One of my scholarly friends from the northwest 
went to Beijing to become an official in the Islamic 
Association, which is a putatively independent religious 
organization under the aegis of the government. When I asked 
him precisely the question that you asked, he said--how to 
translate this--we administer Xinjiang somewhat more severely. 
Xinjiang guande bijiao lihai. ``We keep an eye on Xinjiang with 
a considerably more constraining focus.'' That is the closest I 
have ever heard. But, of course, it did not appear in a 
document, it was a private conversation.
    Mr. Foarde. Thank you.
    Susan, another question? Please, go ahead.
    Ms. O'Sullivan. I was wondering if any of you had some 
thoughts about the question of using this label of terrorism on 
Uighurs. Shortly after 9/11, we saw the Chinese put this label 
on a lot of different groups, Tibetans, Falun Gong, but with 
the Uighurs it has stuck in a way that it has not in other 
groups. The State Department is under increasing pressure to 
designate Uighur groups as terrorist groups, or even to 
acknowledge that individuals are terrorists whom we know are 
not. I am wondering if you have any recommendations for us on 
things that we could do to protect the Uighur community from 
the misuse of this label, if there is anything that those of us 
in the international community could do that we are not doing 
now.
    Mr. Bovingdon. The only things that I would say, would be 
to make sure you have an independent basis of evidence and that 
you do not apply the labels willy-nilly. I know that many 
people in the U.S. Government already have taken these points 
very much to heart.
    I think it is very important to point out that 9/11 has, 
unfortunately, provided a great opportunity for states to label 
all kinds of anti-state activity with this blanket term. It is 
very important not simply to fall in line with that, but rather 
to maintain objectivity, to check evidence trails, and to check 
the explicit statements of the people involved.
    Plenty of Uighur leaders who have been labeled terrorists 
have said explicitly that they disavow terror, and the 
organizations in which they are involved have never advocated, 
nor to my knowledge been involved in, terrorist activities.
    Mr. Barat. The Chinese were 3 percent, by official record, 
in 1949. Today, they are 50 percent. Those 50 percent are 
employed, salary collected, protected, and weapon-holding 
people. That much of the pressure, seven million Chinese 
pressing into the Uighur region within 50 years. That is very 
heavy pressure for the Uighur people. And very little possible 
in the southern region, like Kashgar, Hotan, and those places, 
the peasants are leaving two months to six months for corvee 
labor. With that annual income here, you cannot feed a guinea 
pig. Same with the labor situation. There is very little, tiny 
bit of resistance with exhausted, poor people now labeled as 
terrorists.
    We know in Bosnia how many people died. We know how many 
people died in Chechnya. But we do not know how many people 
died in East Turkestan. I always doubted the half a million, 
one million exaggerated numbers.
    But as a Uighur scholar and years of observing, I believe 
six digits are correct, absolutely correct. But we need to 
investigate. The government needs to investigate. All human 
rights organizations should investigate this one.
    These Uighur prisoners, by hundreds and thousands, they are 
staying in prison, squeezed in and dying. There are a lot and 
they are dying. If the International Red Cross does not do 
anything, the U.S. Government does not do anything, if the 
United Nations does not do anything, these people will die in 
prison, and there are so many. Among these persecuted people, 
there are some Chinese policemen also being persecuted because 
they did not bury it well enough. Workers there digging in the 
sand, they found out the masquerade, that the Uighurs are 
buried there. And then when this thing happened, the soldiers 
got persecuted because they did not do a good job, they did not 
bury them down deep enough, this kind of thing.
    So, in the world, something happened in Bosnia, something 
happened in Chechnya, and now something happened in East 
Turkestan. So, we should pay big attention and rescue these 
people. These boys and girls are dying.
    Mr. Lipman. Let me just add one sentence which I wrote in 
response to one of the e-mails I got from Ann and Susan. The 
greatest threat to Islam in Xinjiang, according to the Uighurs 
with whom I have talked, comes from the vast immigration of 
Han, which they believe can destroy not only the environment of 
their homeland, but their religion and national identity as 
well. Obviously, domestic migration is a very vexed social 
issue in a lot of societies, and there is no easy way for 
anybody in the international community to have anything to do 
with it. It is entirely a domestic affair of the People's 
Republic of China.
    But we should certainly be conscious of the effects that 
long-term immigration of cultural others, to put it kindly, can 
have on religious identity, on national identity, and so on. 
The comparison is often made by Uighur friends to Inner 
Mongolia, where the population is now 75 or 80 percent non-
Mongol and where the Mongol heritage is preserved largely as a 
museum piece rather than a living culture.
    People are very afraid of that happening. Islam, as a 
crucial component of Uighur identity, is perceived to be under 
threat for precisely that reason.
    Mr. Barat. China has a saying, ``By killing the rooster, 
scare the monkeys.'' Now in these 10 years, what is going on is 
killing the Uighurs and scaring the other 50 minorities.
    Mr. Foarde. With that thought, our time is up for this 
afternoon.
    First, I would like to thank our three panelists, Jonathan 
Lipman, Kahar Barat, Gardner Bovingdon. Thanks to all three of 
you for coming so far to share your expertise with us. On 
behalf of Chairman Jim Leach and Co-chairman Chuck Hagel of the 
CECC, thanks to all of you for attending this afternoon.
    You will see the transcript up on the website in a few 
weeks. Please keep checking our website for information on the 
next CECC activities. We will do more roundtables and hearings 
yet this spring.
    For this afternoon, let us put this one to a close. Thank 
you.
    [Whereupon, at 3:35 p.m. the roundtable was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                Prepared Statement of Jonathan N. Lipman

                              may 17, 2004
    The presence of considerable numbers of Muslims throughout the 
Chinese culture area has created difficulties of both perception and 
policy for every China-based State since the 14th century. Living in 
every province and almost every county of the PRC, the people now 
called Hui have managed simultaneously to acculturate to local society 
wherever they live and to remain effectively different--though to 
widely varying extents--from their non-Muslim neighbors. Most of them 
use local Chinese language exclusively, and they have developed their 
``customs and habits'' in constant interaction with local non-Muslims, 
whom they usually resemble strongly in material life. Intermarriage has 
made them physically similar to their neighbors (with some exceptions 
in the northwest), but their Islamic practice and/or collective memory 
of a separate tradition and history allow them to maintain distinct 
identities. In short, they are both Chinese and Muslim, a problem that 
must be solved within many local contexts, for there is no single 
isolated territory occupied primarily by Hui people which could serve 
as a model for Hui all over China.
    Many of the characteristics of the Chinese Muslims can only be 
understood through the localness of Hui communities, despite their 
common Muslim religion and (state-defined) minzu identity. Their 
adaptations include learning local language and fitting into local 
economic systems, sometimes, but not always, in occupations marked as 
``Hui,'' such as tanning, jade selling, and keeping halal restaurants. 
Chinese scholars posit two simultaneous interlocking processes--
ethnicization (minzuhua) and localization (diquhua)--as responsible for 
the formation of the Hui within the Chinese cultural matrix, but those 
processes have not generated any uniformity among their communities. 
Even the centrality of the mosque, obvious in Muslim communities 
anywhere, has been modified by acculturative processes in some eastern 
Chinese cities.
    Hui intellectuals emphasize the national quality of Huiness, its 
``minority nationality'' core, while many ordinary Hui stress the local 
in discussing who they are. Religious leaders and pious individuals, of 
course, place greatest importance on Islamic religion as a unifying 
valence of identity, but they also recognize its limits. Despite the 
claim that ``all Muslims under Heaven are one family,'' most Hui clergy 
do not connect themselves easily or comfortably with Turkic-speaking 
Muslims in Xinjiang, either their culture or their (sometimes imagined) 
sociopolitical ambitions. After all, the vast majority of Hui, even 
those who have traveled extensively in the Middle East, are clearly 
Chinese in their language, material culture, and textual lives outside 
the mosque. However much they might identify with Muslims elsewhere--
even unto donning Arab clothing and headgear for photo opportunities--
Hui are not members of Malay or Turkish or Persian or Arab or any other 
``Muslim'' culture in which Islam is a ``natural'' component of 
identity. On the contrary, they must distinguish themselves constantly 
from the overwhelming majority of Chinese-speakers, who are not 
Muslims, while still remaining part of the only culture and polity in 
which their identity makes sense--that of China.
    Seen in that light, my study of the Hui suggests some conclusions 
regarding their place in contemporary China. First, ``the Hui'' do not 
exist as a unified, self-conscious, organized entity. Some would argue 
that no ethnic group conforms to these criteria, but our commonsensical 
notion of ``the Tibetans'' or ``the Uygurs,'' discussed in endless 
newspaper articles and web postings, indicates that many of us believe 
that they do, or should. The Hui have national leaders, but they are 
all empowered and thus, to some subjective extent, delegitimized by 
their intimate association with the state--through the national Islamic 
Association (Ch. Yixie), the Nationalities Commission (Ch. Minwei), 
state-sponsored madrassas, universities, and other government-approved 
organizations. The separatist Eastern Turkestan movement based in 
Germany and the USA, the independent Republic of Mongolia, and the 
Dalai Lama's leadership of a substantial portion of Tibetans from 
exile--all headquartered outside of China--represent models for ethnic 
identity which the Hui (and, I would suggest, at least some other 
minzu) do not, indeed cannot, follow.
    Second, some Hui communities are more difficult, sensitive, 
volatile, and potentially violent than others. This could be due to 
historical memory of confrontation and desire for revenge, to bellicose 
or inflexible Muslim leadership, to local geographical or economic 
conditions which militate against harmony with non-Muslim neighbors 
and/or the state, to insensitive or downright discriminatory policy or 
behavior from functionaries at several levels of government. 
Negotiation between Muslim leaders and state authorities has succeeded 
in some cities and prevented the escalation of conflict in others, 
allowing Hui communities to thrive. On the other hand, in places such 
as Yuxi and Shadian in Yunnan, western Shandong, and southern Ningxia, 
Hui communities exploded in violence against one another or the forces 
of law and order. Similar and geographically proximate communities in 
Yunnan have had very different histories. How much more disparate must 
local Hui histories be in Gansu, Henan, Beijing, or elsewhere?
    Third, we cannot ignore the power of PRC minzu policy and its 
underlying vision of ``the minorities'' (including the Hui) as 
primitive peoples who require the leadership of the advanced Han minzu 
in order to advance toward the light of modernity. This mixture of 
condescension and fear toward non-Chinese people has much power in Han 
society There can be no question that some Hui resent this attitude and 
its attendant policies. But others do not, or at least mute their 
enmity with acknowledgement of Hui achievements and successes, in both 
the past and the present. An oft-heard contemporary claim, that ``We 
Hui can always defeat the Han in business; they are afraid of us,'' 
echoes edgy old Han proverbial knowledge-- ``Ten Hui, nine thieves.'' 
Though this persistent ethnocentrism will always produce small-scale 
confrontation, even rage and violence, there are no Hui leaders or 
organizations calling upon all Hui, all over China, to reject the 
authority of the current system in favor of Hui hegemony or emigration. 
In this the Hui of China strongly resemble the Muslims of India, who 
persist in their homeland despite constant tension and occasional open 
ruptures with a majority society which, to some extent, denies the 
validity of their sense of belonging and brands them as dangerous and 
foreign. But unlike the Indian Muslims, the Hui have no Pakistan, no 
Bangladesh to which they can turn as a ``more authentic'' homeland, and 
they constitute an incomparably smaller percentage of the general 
population.
    Finally, as far as most Hui are concerned, neither separatist 
movements nor Islamic fundamentalism should undermine the unity of 
China as a nation-state. The Hui can only be Hui in China, however 
orthodox or orthopractic they may be in their Islamic lives. Even if 
increasing international communication raises the consciousness of 
Middle Eastern issues and Islamic identity among the Hui, this will 
result in calls for ``authentic'' religion rather than separatism. The 
small communities of Hui living outside of China--in Turkey, for 
example, or Los Angeles--have not attempted to set up governments in 
exile but rather halal Chinese restaurants, conforming to the pattern 
of other Chinese emigrants in those parts of the world. Thus, despite 
the Hui being defined as a ``minority nationality,'' we must 
nonetheless regard them as unequivocally Chinese, though sometimes 
marginal or even despised Chinese. Some among them, especially young 
and militant imams, might claim that the unity of the Islamic umma 
overrides national (Chinese) identity, but this contention cannot be 
shared by most Hui. Like African Americans or French Jews, the majority 
of Hui participate as patriotic citizens in the political and cultural 
life of their homeland, even when antagonistic elements in the society 
or State challenge their authenticity or loyalty.

                                 ______
                                 

                   Prepared Statement of Kahar Barat

                              MAY 17, 2004

    Thanks to the Congressional-Executive Commission on China for 
inviting me today to present testimony about the religious situation in 
East Turkistan. And also thanks to the Uighur friends for sharing ideas 
with me on this issue.
    The Uighur territory was the easternmost border of Islamic Empire 
where religion had been loose, isolated and backward. Missionaries 
brought Islam to Kashgar in the 10th century. But the Islamization of 
the whole East Turkistan took more than 500 years as the widely 
displaced oasis population was converted one by one from Buddhism and 
Christianity. Preserving pre-Islamic and indigenous religious believes, 
the people created a moderate and liberal form of Sunni Islam. Under 
the patronage of Chagatai rulers, Islam gained a strong theocratic 
power. Central Asian Naqshbandiyya Sufism influenced, especially the 
Tarim basin, for centuries.
    But the Manchurian invasion in 1759 blanketed the area with 
colonial non-Muslim administration and limited the Islamic authority to 
a secondary position. During early modernism period, some progressive 
merchants such as Musabay and Muhiti brought Jadidist teachers from 
Kazan, Istanbul and Moscow universities to open western style schools. 
From1885 to 1916, there were already 16 new schools open in East 
Turkistan. A textbook publisher was established in 1910 in Kashgar.
    Mao Zedong's religious policy was of a typical Soviet type simply 
eliminating religion from society. They trumpeted communism and atheism 
as progressive and Islam as feudal, backward and superstitious. That 
time each town had only one mosque, big cities had 2-3 mosques open 
mainly for funeral ceremonies. A more devastating attack came in 1967--
1969 during Cultural Revolution when almost all mosques were destroyed, 
Imams were persecuted, and millions of books were burned.
    As a result of 30 years of enforced atheism, the majority of Uighur 
people became separated from Islam. Younger generations grew up knowing 
nothing about the religion, and the Koran was not available. Despite 
all this, there had been always a small group of old people who kept 
praying secretly. Uighur people maintained their faith at a minimum 
level. No boy remained without circumcision, no one buried without 
prayer, and almost no Uighur ate pork even though some Uighur cadre 
raised pig.
    Since the introduction of the open door policy in China, there was 
a short period of time in which Uighur Muslims could restore the 
mosques, some attended organized Hajj pilgrimage, and students went to 
al-Azhar and Islamabad universities to study Islam. To an unprepared 
Uighur nation, return to Islam caused a great excitement. Young and old 
desperately searched for a way to learn how to pray. Mosques were soon 
full again. Privately funded mosques were built everywhere. Many Uighur 
studied abroad or back from Hajj brought a new understanding about 
Islam on the contrary to communistic distortion, which was much open, 
intelligent and cosmopolitan. Koran was translated into Uighur in 1985 
as well as Bukhari and other Arab classics. Some young Imams played an 
active role fighting against the social pollution and crimes, such as 
alcoholism, drug, prostitution, which is still a disaster in China. But 
the government viewed the new trend as a threat, and responded it with 
a hard line repressive policy. Such new religious freedom lasted only 
10 years from 1978 to 1988.
    Sun Yatsin and Mao's nationalistic revolutions wiped out the royal 
clan and religion from China without hesitation. What that might bring 
to this strong Nation is a historical myth. Does Chinese society need 
religion? Why did Falun Gong develop? Ever since, Han chauvinism became 
the leading ideology in all administration. The economic growth and 
social changes in China simultaneously brought a drastic assimilation 
of all minority cultures and even Chinese local cultures. If the 
situation continues as it is, within a century, we may see only 6 
nationalities left, not 56, that will not bring anything positive to 
this society. China!s reckless growth of population had already brought 
a disaster to all minorities and even themselves, now the ethnic 
assimilation is attacking the minorities in both quiet and violent two 
directions: either you give up your identity to become Chinese, or I 
will kill your language, religion and culture to make you a Chinese.
    What we are seeing lately is the last scene of communism where the 
anti-Islamic ethnic killings happen in Bosnia and Chechen. China also 
operated a same war at its backyard by supplementing the military 
presence in Uighur area. Accusing of ``religious extremists,'' 
``Islamic fundamentalists'' associated with ``separatists,'' they 
killed and arrested thousands of religious teachers and students. The 
1995 Khotan incident was triggered by the arrest of Imam Abduqeyim 
Abdumijit. 1997 Ili incident was also started by the police arrest of 
some Uighur boys and girls while they were praying during the month of 
Holy Ramadan. Who is using the religion for what purpose?
    Now all the State employees and students are strictly forbidden 
from practicing Islam. China's propaganda machine has been using their 
traditional methods, created an ethnic hatred, demonized Uighur image, 
translated Uighur resistance into international terrorism, and 
convinced the international community in many ways. Many Uighur people 
feel that they are betrayed by the world. Neighboring weak countries 
deported Uighur refugees back to China sacrificing lamb to the beast. 
Life has become so confusing for Uighurs that many have stopped going 
to mosque again.
    In the meanwhile, Hui Muslims calmly watched the persecution of 
Uighur Muslims; they then started looking for a way to negotiate with 
the government. After 3 major experiments with Islam, going from one 
extreme to another, Chinese leaders seem to have come down to their 
last bargain: the religion must follow socialistic guidelines. Islamic 
practice is allowed only through officially trained Imams with new 
interpretations. Recently the Islamic associations started to compile 
``new interpretations'' of Koran and standard Islamic textbooks. All 
local 470 Islamic associations are busy training young Imams. A new 
``interpretation'' of Koran conference was held in Urumchi on September 
9, 2003 implying the introduction of this new policy into the Uighur 
region.
    We hope the US government will take appropriate action to stop the 
religious persecutions in China, and improve access to Uighur people to 
practice true religion.

                                 <all>

</pre></body></html>
